We had to RULE 33.1(h) CERTIFICATE OF
COMPLIANCE
No. 20-1199
IN THE

Supreme Court of the United States
STUDENTS FOR FAIR ADMISSIONS, INC.,
Petitioner,
v.
PRESIDENT AND FELLOWS OF HARVARD COLLEGE,
Respondent.

I certify that the Amicus Brief of Economists as Amici Curiae in Support of
Petitioners contains 5,911 words, excluding those parts of the document exempted by
Rule 33.1(d).

March 26, 2021

C. Boyden Gray
Counsel of Record
BOYDEN GRAY & ASSOCIATES
801 17th Street NW, Suite #350
Washington, DC 20006
(202) 955-0620
info@boydengrayassociates.com

